BOYDEN GRAY & ASSOCIATES PLLC
801 17TH STREET, NW, SUITE 350
WASHINGTON, DC 20006
(202) 955-0620

September 29, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Byrd v. Lamb, No. 21-184

Dear Mr. Harris:
I recently appeared in this matter as counsel of record for
Respondent, who was previously proceeding pro se.
Several motions for leave to file amicus briefs in support of
Petitioner are currently pending due to a lack of prior consent from
Respondent. To the extent it may obviate the need for the Court to rule
on those motions, this letter confirms Respondent’s consent to the filing
of any amicus briefs in support of either or neither party, pursuant to
Rule 37.
Respectfully,
/S/ R. TRENT MCCOTTER
BOYDEN GRAY & ASSOCIATES PLLC
801 17th Street NW, Suite 350
Washington, DC 20006
202-706-5488
mccotter@boydengrayassociates.com
cc:

All Counsel

